Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




 CLIENT COOPERATION WITH
CHILD SUPPORT ENFORCEMENT
        Use of Good Cause Exceptions




                      JUNE GIBBS BROWN
                       Inspector General

                          MARCH 2000
                         OEI-06-98-00043
                         OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, is to
protect the integrity of the Department of Health and Human Services programs as well as the
health and welfare of beneficiaries served by them. This statutory mission is carried out through a
nationwide program of audits, investigations, inspections, sanctions, and fraud alerts. The
Inspector General informs the Secretary of program and management problems and recommends
legislative, regulatory, and operational approaches to correct them.

                            Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public. The
inspection reports provide findings and recommendations on the efficiency, vulnerability, and
effectiveness of departmental programs.

OEI's Region VI prepared this report under the direction of Chester B. Slaughter, Regional
Inspector General and Judith V. Tyler, Deputy Regional Inspector General.

Principal OEI staff included:

DALLAS                                          HEADQUARTERS

Blaine Collins
                                 Alan Levine, Program Specialist
Ruth Ann Dorrill
                               Joan Richardson, Program Specialist
Marnette Robertson
                             Linda Hall
Clark Thomas, Ph.D.

Nancy Watts

Lisa White


FIELD OFFICES

Lucille Cop
Vincent Greiber
Ianna Kachoris
Thomas Purvis
Graham Rawsthorn

         To obtain copies of this report, please call the Dallas Regional Office at 214-767-3310.
          Reports are also available on the World Wide Web at our home page address:

                                  http://www.dhhs.gov/progorg/oei
                 EXECUTIVE SUMMARY

PURPOSE

     To describe State use of good cause exceptions which exempt Temporary Assistance to
     Needy Families (TANF) clients from requirements to cooperate with child support
     enforcement.

BACKGROUND

     Federal law requires TANF clients to cooperate with State child support enforcement
     agencies in establishing paternity, and in creating and enforcing child support and medical
     support orders. States are allowed to exempt TANF clients from cooperating with child
     support through good cause exceptions, typically when the pursuit of support is expected
     to result in physical or emotional harm to the child or client, when the child is born as a
     result of forcible rape or incest, or when adoption proceedings are pending. This report
     describes use of good cause exceptions in six focus States which we chose in order to
     examine a variety of implementation strategies and experiences regarding TANF client
     cooperation. We gathered survey responses and reviewed documents from 99 local child
     support and 103 local public assistance offices, and interviewed 180 managers and
     caseworkers.

FINDINGS

Public Assistance and Child Support Staff Report Few Requests for Good Cause
Exceptions and Virtually No Fraudulent Claims

     Consistent with prior research about the use of good cause exceptions, respondents in our
     focus States report receiving few requests for exceptions from TANF clients. Staff
     believe that most, if not all, requests for good cause exceptions are legitimate. While staff
     recognize the potential for clients to fraudulently claim a good cause exception simply to
     avoid cooperating with child support enforcement, no caseworker or manager we
     interviewed was aware of a case with such fraud. Rather, staff indicate that the
     administrative process for requesting an exception deters fraud.

A Variety of Reasons and Disincentives Help Explain the Low Number of TANF
Client Requests for Good Cause Exceptions

     Most State child support agencies do not pursue child support enforcement when a good
     cause exception is granted, yet staff report that many TANF clients potentially eligible for
     an exception want child support collected. Some clients find it easier to claim they have
     no information about an absent parent than to corroborate a good cause exception. While



                                               i
      public assistance staff provide at least minimal notification of good cause exceptions, few
      attempt to assess whether client circumstances support an exception.

Most Local Offices Make Some Efforts to Preserve Client Safety, But These
Efforts Are Often Modest and Not Fully Implemented

      Many public assistance and some child support staff refer TANF clients who report
      domestic violence concerns to shelters and other community resources and may also keep
      client addresses confidential to help preserve safety. Most local offices also routinely
      record potential domestic violence problems by labeling paper and electronic case files
      which have good cause exceptions.

RECOMMENDATIONS

      Successful operation of the child support enforcement program requires effective,
      cooperative action by both the Office of Child Support Enforcement and the Office of
      Family Assistance. Therefore, we recommend that the Assistant Secretary for the
      Administration for Children and Families (ACF) encourage States to complete the
      following.

Develop Strategies That Allow TANF Clients Who May Be at Risk of Domestic
Violence to Safely Pursue Child Support

Enhance Local Office Training to Improve Staff Understanding of Good Cause
Exceptions and Better Equip Workers to Assist TANF Clients At Risk

Evaluate Their Standards and Practices for Protecting TANF Client Confidentiality
and Assess the Need for Further Federal Guidelines

COMPANION REPORTS

          This is one of four OIG reports on how States gain TANF client cooperation with child
          support enforcement. One companion report, Client Cooperation with Child Support
          Enforcement: Policies and Practices (OEI-06-98-00040), provides an overview of
          cooperation polices and how they are implemented. Another report, Client Cooperation
          with Child Support Enforcement: Challenges and Strategies to Improvement (OEI-06-98-
          00041), examines why some clients do not cooperate and how States attempt to gain
          cooperation. The remaining report, Client Cooperation with Child Support Enforcement:
          The Role of Public Assistance Agencies (OEI-06-98-00042), discusses responsibilities of
          public assistance agencies and collaboration between agencies.




                                                 ii
               TABLE OF CONTENTS

                                                     PAGE


EXECUTIVE SUMMARY                                        i


INTRODUCTION                                            1


FINDINGS


     State Use of Good Cause Exceptions                 4


     Preserving Client Safety                           9


     Reasons For Clients Not Requesting Exceptions     12


RECOMMENDATIONS                                        17


ENDNOTES                                               18

                       INTRODUCTION

PURPOSE

   To describe State use of good cause exceptions which exempt Temporary Assistance to
   Needy Families (TANF) clients from requirements to cooperate with child support
   enforcement.

BACKGROUND

   Federal law requires public assistance clients receiving TANF benefits to cooperate with
   State child support enforcement agencies in establishing paternity and in creating and
   enforcing child support and medical support orders. Cooperation often involves providing
   information about noncustodial parents and appearing for appointments as needed. State
   child support agencies are required to determine if a TANF client is cooperating in “good
   faith” and notify the public assistance agency of each client’s cooperation status. States
   are allowed to exempt clients from child support enforcement cooperation requirements
   through good cause exceptions.

   Prior to the passage of welfare reform legislation,1 Federal law required States to grant
   clients good cause exceptions when one of the following circumstances existed: when
   pursuing paternity establishment or child support enforcement was “reasonably expected
   to result in” physical or emotional harm to the child, or physical or emotional harm to the
   client which reduced “such person’s capacity to care for the child adequately;” and when
   one of three circumstances existed (i.e., the child was born as a result of forcible rape or
   incest, adoption proceedings were pending, or a public or social agency was assisting the
   client to determine whether to release the child for adoption) and because of this
   circumstance, enforcement “would be detrimental to the child.”2

   These pre-reform regulations required States to provide clients with written notification of
   “the right to claim good cause as an exception to the cooperation requirement” prior to
   requiring cooperation and clients to acknowledge such notification “by signing and dating
   a copy of the notice.”3 States were also required, upon request, to “provide reasonable
   assistance in obtaining corroborative evidence” to substantiate a good cause exception
   claim. Clients who claimed good cause under the pre-reform regulations were required to
   “provide corroborative evidence of a good cause circumstance ... [and], when requested,
   furnish sufficient information to permit the State and local agency to investigate the
   circumstances.”4 Once an exception was granted, Federal regulations required State
   public assistance agencies to determine whether child support enforcement could proceed
   without risk of harm to the child or caretaker and notify the client of its determination.




                                             1

   Welfare reform legislation changed many Federal provisions regarding good cause
   exceptions. These changes were made in an attempt to improve client cooperation with
   child support enforcement.5 Current policy allows, but does not require, States to keep
   the prior Federal standards for granting good cause exceptions. States now have
   discretion to expand or constrict the circumstances they accept as qualifying for good
   cause exceptions, as long as they are “taking into account the best interests of the child.”6
   States determine what standards of proof are required to demonstrate the circumstances
   warranting exceptions and which agency - child support, public assistance or Medicaid - is
   responsible for evaluating, and approving or denying, requests for good cause exceptions.7
   States may also decide whether to provide clients any assistance in demonstrating good
   cause circumstances.8

   Researchers, advocates, and policy-makers voice two concerns about States’ use of good
   cause exceptions. The first concern involves the potential for clients to fraudulently claim
   exceptions when they do not have a legitimate fear of domestic violence or other
   qualifying circumstance simply to avoid cooperating with child support enforcement.
   This concern has been minor in the past because States report receiving very few requests
   for exceptions and granting even fewer.9 However, some fear that stricter enforcement of
   penalties for noncooperation may encourage some clients to seek an exception even in the
   absence of qualifying circumstances. Second, because States grant few exceptions, yet
   domestic violence among the TANF population is reportedly widespread,10 there is
   concern that some clients may not request an exception even when they do have
   circumstances that meet a State’s definition of good cause. Some fear that TANF clients
   may not be adequately informed of their right to request an exception or may have other
   reasons or disincentives for not requesting an exception.

   This report describes the use of good cause exceptions in six focus States. We describe
   State policies and processes regarding good cause exceptions to child support cooperation
   requirements. We review State efforts to preserve the safety of clients who are granted an
   exception. We also explore reasons and disincentives that may lead clients not to request
   good cause exceptions. Disincentives are of particular interest because of the apparent
   disparity between the high incidence of domestic violence within the TANF population
   and the relatively small number of requests for good cause exceptions.

SCOPE AND METHODOLOGY

   To examine State use of good cause exceptions to child support enforcement cooperation
   requirements, we began by gathering information from local child support and public
   assistance offices. Administrators from 99 local child support offices and 103 public
   assistance offices in six States - California, Georgia, Illinois, New Jersey, Texas and
   Virginia - returned mail surveys regarding good cause exception policies and practices.
   We also gathered and reviewed agency documents including client cooperation policy
   statements, standardized claim forms, examples of correspondence with clients, and other
   related documents. Additionally, we made site visits to a subset of local offices, visiting



                                             2

    offices in one or two cities and their surrounding areas in each of the six focus States.
   During these visits, we conducted interviews with approximately 180 local public
   assistance and child support managers and caseworkers. At almost all offices, we
   interviewed one or more managers, then separately interviewed two or more caseworkers.
   These respondents provided detailed information about how good cause exception policies
   are implemented, as well as the effect of good cause exceptions on office operations, staff,
   and clients. Resource constraints prevented us from directly interviewing clients. Finally,
   we conducted telephone interviews of administrators from each State’s child support
   enforcement and public assistance agency to confirm information regarding State policies.

   We purposively selected the six focus States to include a variety of implementation
   strategies and experiences regarding client cooperation and good cause exceptions. To
   achieve this variety, we considered many criteria including type of penalties for
   noncooperation, number of good cause requests, number of good cause exceptions
   granted, Family Violence Option (FVO) status, outstanding program characteristics
   (innovations, privatization, etc.), and geographic region. We also purposively selected
   local child support and public assistance offices within these States to provide a mix of
   urban, suburban, mid-size, and rural locations. For on-site interviews, we visited offices in
   one or two cities and their surrounding areas in each focus State. The selection of focus
   States does not purport to be representative of the nation, nor do local offices represent all
   offices within individual focus States. The selections do, however, allow for examination
   of good cause exceptions to TANF client cooperation processes under conditions found
   throughout the country.

   This report relies on the experiences and perceptions of local office survey respondents
   and interviewees. We did not attempt to independently verify the information provided.
   However, the information included in the report does relate the experience of front line
   staff who deliver services to clients on a daily basis, and who demonstrate considerable
   concern for the effectiveness of their programs. This study was conducted in accordance
   with the Quality Standards for Inspections issued by the President’s Council on Integrity
   and Efficiency.

COMPANION REPORTS


       This is one of four OIG reports on how States gain TANF client cooperation with child
       support enforcement. One companion report, Client Cooperation with Child Support
       Enforcement: Policies and Practices (OEI-06-98-00040), provides an overview of
       cooperation polices and how they are implemented. Another report, Client Cooperation
       with Child Support Enforcement: Challenges and Strategies to Improvement (OEI-06-98-
       00041), examines why some clients do not cooperate and how States attempt to gain
       cooperation. The remaining report, Client Cooperation with Child Support Enforcement:
       The Role of Public Assistance Agencies (OEI-06-98-00042), discusses responsibilities of
       public assistance agencies and collaboration between agencies.




                                              3

                                  FINDINGS

STATE USE OF GOOD CAUSE EXCEPTIONS

      All six focus States have adopted the prior Federal definition of good cause by which
      TANF clients may be exempted from child support cooperation requirements in cases of
      domestic violence, when conception was the result of forcible rape or incest, when
      adoption is pending, or when the client is consulting with a social service agency regarding
      the possibility of adoption. Some focus States have added circumstances that warrant an
      exception, including mental incapacity of the client, cases with non-parent caretakers,
      cases in which conception occurred from artificial insemination, cases in which clients lack
      knowledge about absent parents, and cases in which domestic violence is anticipated. Five
      focus States make their public assistance agency responsible for evaluating requests for
      good cause exceptions. In the sixth State, child support workers evaluate requests for
      good cause exceptions, but are employees of the public assistance agency and work in the
      same offices as public assistance workers throughout the State.

Staff in Local Public Assistance and Child Support Offices Report Few Requests
for Good Cause Exceptions and Virtually No Fraudulent Claims

      While our study makes no attempt to quantify the number of good cause exception
      requests processed by local offices, we did ask local office staff their perception of the
      frequency of requests. Consistent with prior research about the use of good cause
      exceptions, respondents in our focus States report receiving few requests for exceptions.
      In many offices, even experienced caseworkers have never had a client request a good
      cause exception, or have only received one or two requests in several years. Typical
      caseworker and manager responses to questions about the frequency of requests for
      exceptions were, “I’ve had one in six years,” and “Very, very few. There is a form in
      there that the worker is supposed to fill out and turn in each month on each [client] that
      claims good cause. I can’t remember the last time I had to fill one out.” One local
      public assistance office administrator reported participating in a Statewide review of good
      cause claims and related her experiences. “I had to review 17 of them. We don't get a lot
      of them. They are primarily domestic violence (proven) or threat of domestic violence.
      Normally they can prove their claim.”

      Staff believe that most, if not all, requests for good cause exceptions are legitimate. One
      worker expressed what we heard from most staff, “The few cases I have had have been
      outright, fully validated cases, such as incest or sexual abuse. The clients could validate
      this, and were not just making up a story.” While staff did recognize the potential for
      clients to fraudulently claim a good cause exception simply to avoid cooperating with child
      support enforcement, no caseworker or manager we interviewed was aware of any such
      attempted fraud. Rather, staff indicate that the administrative process for requesting



                                               4

      an exception deters fraud. Most offices require corroboration, and a client may have to
      relay their story to more than one staff member in one or both agencies. Additionally,
      staff experience in confronting other types of welfare fraud likely helps them in judging the
      authenticity of client good cause exception requests.

Public Assistance Staff Provide at Least Minimal Notification to TANF Clients of
Their Right to Request a Good Cause Exception, Yet Few Individually Assess
Clients for the Circumstances that Might Warrant an Exception

      Ninety-three percent of public assistance staff responding report their offices provide new
      applicants and clients seeking re-determination of benefits written materials explaining
      their right to request a good cause exception. These materials are often included with
      application forms and documents that explain requirements to cooperate with child
      support enforcement. The written explanations of good cause exceptions often include a
      list of the circumstances that may warrant an exception and the standards of proof needed
      to corroborate the circumstances. Additionally, public assistance staff often provide a
      second notice of the opportunity to request a good cause exception to TANF clients who
      have already been deemed noncooperative by the child support agency.

      In addition to providing written notification, 87 percent of public assistance staff
      responding report they discuss good cause exceptions with clients during the application
      process. Staff explain that they typically use the written materials as guides for these
      discussions. However, staff also report they are unlikely to extend their discussions
      beyond the written materials. That is, staff report that during discussions about good
      cause exceptions they seldom go so far as to ask TANF clients whether any of the
      circumstances exist in their lives or to otherwise assess individual needs.11 One public
      assistance administrator summarizes, “We don’t really look for domestic violence. The
      clients have to bring it up.” Upon completion of notice, 96 percent of public assistance
      respondents report they require their clients to sign a form indicating they have received
      notification of their right to request a good cause exception.

TANF Clients Typically Submit Requests for Good Cause Exceptions to Public
Assistance Staff, Either Verbally or in Writing, Though Child Support Staff May
Also Become Involved

      During application or re-determination interviews, clients may formally request a good
      cause exception directly with public assistance staff. Among local public assistance
      respondents, 40 percent report they rely simply on a verbal request, 29 percent require a
      written request, and the remaining 31 percent accept either verbal or written requests for
      exceptions. In some States, the written form for requesting an exception is printed on the
      same form that notifies clients of the State’s child support cooperation requirements. One
      State’s written form includes a check box beside the following statement, “I wish to claim
      good cause for not cooperating with child support requirements. The situations which




                                                5

      justify good cause have been explained to me. I agree to provide evidence to support
     this claim of good cause within 20 days.”

     Some clients do not mention circumstances that warrant a good cause exception until they
     are meeting with child support enforcement staff. This may occur because child support
     staff often ask more detailed questions and clients may only then realize the risk that the
     State may actually contact the noncustodial parent. Respondents report that when child
     support workers become aware of circumstances that may warrant a good cause
     exception, they typically refer the client back to the public assistance agency to request an
     exception. As one child support worker explains, “If the client comes in and there is
     some sort of fear for their life, their well being, or if there is any type of domestic
     violence, we can always refer [clients] to apply for good cause through the welfare
     department. We tell our clients they need to communicate this back to welfare as soon as
     possible.” Child support staff report they also notify the public assistance agency of their
     action.

States Require TANF Clients to Corroborate Circumstances That Warrant Good
Cause Exceptions Within a Specified Time Frame, and Most Local Offices Will
Grant Time Extensions and Assist Clients in Gathering Information

     All focus States have policies requiring TANF clients to provide documentation of
     circumstances that warrant a good cause exception. Almost all local public assistance
     staff (93 percent) report they require proof or documentation of domestic violence, and
     most (81 percent) also require documentation that conception occurred as a result of
     forcible rape or incest, or that adoption is pending.

     As shown in Table 1, local offices accept several types of evidence to corroborate
     circumstances of domestic violence, including police reports, court orders, hospital
     records, and shelter documentation. More than half of local respondents report they also
     accept written statements of clients (59 percent), or friends of clients (62 percent), who
     attest to having knowledge of domestic violence. Some local offices accept verbal
     statements from the clients or acquaintances, without need for written verification.

     To corroborate pending adoption or conception as a result of forcible rape or incest,
     clients may present such documentation as adoption papers, court documents, birth
     certificates, police reports and hospital records. Staff note that clients may not have
     documented the nature of conception at the time of birth, and that client statements are
     often allowed as acceptable evidence of these circumstances.

     States require TANF clients to corroborate circumstances that warrant a good cause
     exception promptly upon request for an exception, though many grant time extensions.
     Ninety-one percent of public assistance staff report their offices allow recipients between 5
     and 30 days to produce good cause evidence. Only nine percent of local respondents
     report initially allowing clients more than 30 days to corroborate their claims. Regardless



                                               6

       of time limits, 89 percent of public assistance staff say they will extend the time allowed
       for corroboration. Local public assistance staff report granting extensions often (28
       percent), sometimes (35 percent) or rarely (37 percent).

       Table 1: DOCUMENTATION ACCEPTED FOR DOMESTIC VIOLENCE CASES

            Documentation of Domestic Violence                          Local Focus Offices
Police record or documentation of abuse in the home                         94% (89 offices)

Protective order already in place                                              89% (85)

Hospital record or documentation of abuse                                      86 % (82)

Shelter documentation or statement                                             79 % (75)

Written statement by a friend of the custodial parent                          62 % (59)

Referral to domestic violence shelter                                          61 % (58)

Written statement by the custodial parent                                      59 % (56)

Verbal statement by the custodial parent                                       34 % (32)

Verbal or written statement by mental health professional, clergy,
medical, court, or social service agency                                       21 % (20)

Verbal statement by a friend of the custodial parent                           19 % (18)


       Eighty-three percent of local public assistance staff report they will assist clients in
       gathering information or evidence to document circumstances which warrant a good cause
       exception. Assistance would involve contacting courts, hospitals, police departments, or
       other agencies. For example, one worker said, “We ask [the client] for a copy of a
       restraining order. If they don’t have it with them, I will call the police asking them to fax
       a copy.” While most local offices wait until clients request assistance in gathering
       documentation, twenty-eight percent of respondents report their staff will automatically
       assist clients without a request. Prior to welfare reform, States were required to provide
       this type of assistance to clients upon request. Sixteen percent of local public assistance
       respondents report their staff will not assist clients in obtaining documents to corroborate
       their request for a good cause exception. Our research suggests, however, that gathering
       documentation for corroboration of claims is not a substantial barrier to most clients who
       seek an exception, whether or not staff assist them, and that, if necessary, staff may even
       waive the requirement for documentation.

Local Public Assistance Staff Evaluate Requests for Good Cause Exceptions and
Have Discretion in Deciding Whether Clients Qualify

       Respondents report that front line public assistance staff typically decide whether to grant
       good cause exceptions to requirements to cooperate with child support enforcement.
       Caseworkers explain that they have the advantage of dealing directly with TANF clients to



                                                        7

     evaluate their claims. Workers suggest that discussion with clients often helps them
     understand the client’s circumstances. As one worker reports, “It depends on the client's
     situation. You can usually tell [if the circumstances exist].”

     Public assistance managers and supervisors also often participate in good cause exception
     determinations. These administrators may simply consult with caseworkers, or they may
     actually make the final decision. During interviews, many caseworkers said they had
     limited experience with requests for exceptions and that they would seek input from a
     supervisor before making a final determination. They report, “Cases are so few that a
     worker would come to us to ask how to handle a case, because it is not a routine
     situation.” and “I wouldn’t take good cause for someone without having discussed it with
     at least another co-worker to make sure that I’m doing it right. I have the authority and
     it could be my judgement, but I would feel more comfortable taking it to my supervisor
     because it is not something that comes up every day. Maybe, once a year you get a client
     claiming good cause.” A few public assistance workers report routinely consulting their
     child support enforcement counterpart before deciding to grant or deny requests for
     exceptions. When this occurs, child support staff typically review and comment on the
     findings and basis for a proposed determination.

     Staff appear to have substantial discretion as they evaluate good cause exception requests.
     Even in the absence of written documentation, staff may grant an exception. For example,
     one caseworker describes, “In most cases, now, we just take her at her word, and she
     does not have to have any other evidence, like a police report. If she says she is afraid
     [and] has verification, fine. But if not, we will take her word for it.” Additionally,
     considering that so few clients request exceptions, staff appear to prefer to approve
     requests, lest they mistakenly deny a legitimate request. As one supervisor explains, "Very
     few claims are ever refused because the liabilities far outweigh the benefit of collecting
     that support."

     Staff use internal agency “determination forms” to process requests for good cause
     exceptions in all focus States. Some determination forms identify the circumstances for
     the request, and record client information, evidence provided, and the source of evidence.
     Other forms simply record whether the exception was granted. Local public assistance
     offices typically notify TANF clients in writing of their decision to grant or deny a good
     cause exception request. Such notice often includes information about any future steps
     the client needs to take. Clients whose requests for a good cause exception are denied can
     appeal the decision. Ninety percent of local public assistance staff report that clients may
     appeal a determination to a caseworker’s supervisor. If the dispute remains unresolved,
     clients can request a formal hearing.

Most Public Assistance Offices Periodically Reassess Good Cause Exceptions

     Seventy-four percent of public assistance staff report their offices conduct periodic
     reassessments of good cause exceptions. About half of these respondents specify that




                                              8

      they reassess every six months, while the others reassess every twelve months. If
      circumstances have changed and a good cause exception no longer applies, the public
      assistance agency may rescind the exception, again requiring TANF clients to cooperate
      with child support enforcement. About one-quarter of public assistance staff report that
      their office does not reassess clients with good cause exceptions. Most of these offices do
      not have routine procedures for reassessment, and a few appear confused about their
      office’s role, including some who believe the child support agency periodically reassesses
      clients with exceptions.

Most State Child Support Agencies Do Not Pursue Paternity Establishment or
Child Support Enforcement When a Good Cause Exception Is Granted

      Caseworkers explain that some TANF clients wish to pursue child support enforcement
      despite the existence of circumstances that warrant a good cause exception. According to
      policy documents, five focus States will not pursue paternity establishment or child
      support enforcement in cases in which the client has been granted a good cause exception.
      The other State has a policy allowing clients to determine whether the child support
      agency will pursue enforcement. However, 37 percent of local child support respondents
      report they will pursue support if the client wishes, including some local respondents from
      States with a policy not to pursue support. Some of these respondents may be unclear
      about State policy because they have never encountered a good cause case, but it appears
      that some local staff may use discretion in pursuing support.

      Local child support staff report they handle cases with good cause exceptions in one of
      four ways: the public assistance agency never refers the case to the child support agency;
      the case is referred, but the child support agency never adds it to their caseload; the case is
      referred and child support adds it to their caseload, but immediately closes the case, never
      pursuing enforcement; or, the case is referred and child support adds it to their caseload,
      but only pursues enforcement at the client’s request.

PRESERVING CLIENT SAFETY

      The objective of granting good cause exceptions is often to protect clients and children
      from harm. In processing good cause requests, public assistance and child support staff
      report they have some mechanisms in place to help ensure this protection. Local offices
      may also promote additional services to assist clients, beyond exempting them from child
      support cooperation requirements.

Nearly All Local Public Assistance and Child Support Offices Make Some Effort to
Preserve Client Safety, and 78 Percent of Staff Believe Good Cause Exceptions
Reduce the Threat of Harm

      Ninety-two percent of local child support and 96 percent of local public assistance staff
      report having procedures in place to preserve the safety of custodial parents and children



                                                9

       who fear harm from noncustodial parents. These procedures often center on preserving
       confidentiality of case information, but may still be modest efforts and not yet fully
       implemented. Additionally, local child support and public assistance office efforts to
       preserve confidentiality may be limited by court documentation that is not kept secure.
       Staff from both agencies appear to appreciate the purpose of good cause exceptions, and
       78 percent of respondents in both agencies report they believe receiving a good cause
       exception reduces the threat of harm to the custodial parent and child. Table 2 outlines
       procedures local offices use to enhance client safety.

            Table 2: REPORTED PROCEDURES TO ENHANCE CLIENT SAFETY


      Procedures to Enhance Client Safety                  Public Assistance      Child Support
                                                            Focus Offices         Focus Offices
Referral to domestic violence shelter                        80% (76 offices)     29% (25 offices)

Referral to domestic violence counselor or group                 76% (73)             29% (25)

Measures to protect client address confidentiality               58% (56)             72% (63)

Flag in automated system to identify cases                       35% (34)             51% (44)


Many Public Assistance and Some Child Support Staff Refer TANF Clients Who
Report Domestic Violence Concerns to Community Resources

       As reported in Table 2, primarily public assistance, but also child support, staff report they
       refer clients to community resources when domestic violence is a concern. Typically,
       these referrals are to resources specific to domestic violence, such as women's shelters or
       violence counselors, but may include other community resources such as food banks,
       homeless shelters, churches and child care services. A few public assistance offices we
       visited actively coordinated these additional social services. For example, one urban office
       offered transportation to a nearby shelter. In other public assistance offices, staff may
       simply pass out brochures, distribute shelter phone numbers, or verbally mention the
       availability of such resources. As part of large social service agencies, some child support,
       and particularly public assistance offices, have counselors or social workers available on-
       site to assist clients with domestic violence issues. As one public assistance worker
       reports, “We are not trained, in that we don't have advanced degrees, but we refer
       [clients to services]. A lot of times they are in various emotional states and they just
       need a social worker to talk to them. They just need to tell their stories.” Staff are
       limited by the number of services available in their particular community. Although there
       is wide variation in available services, most communities appear to have agencies or non-
       profit entities which assist victims of domestic violence.




                                                     10

Protecting Client Addresses is a Common Practice of Local Public Assistance
and Child Support Offices to Help Preserve Client Safety

      Noncustodial parents are likely to never be contacted for child support enforcement when
      a good cause exception has been granted. However, a few child support offices may
      continue to pursue support even when a good cause exception has been granted, and some
      clients who are at risk of domestic violence may choose not to request an exception in
      order to pursue support. Under these circumstances, child support and public assistance
      offices may contact noncustodial parents regarding their support obligations. In sending
      letters and documents, offices may inadvertently reveal the county of residence or even
      more specific location information about the client and children. A number of respondents
      report taking precautions in sending information to noncustodial parents in all cases, while
      others only take such measures when a client indicates a domestic violence problem. For
      example, some staff report that they are not allowed to use client or child address
      information in correspondence with noncustodial parents when a case is known to involve
      a risk of domestic violence. Other staff report they take no further action on such cases.
      Among focus State offices which report any precautionary procedures, 72 percent of child
      support and 58 percent of public assistance respondents report they take some measures
      to protect the confidentiality of client and child addresses.

Most Local Offices Routinely Record Potential Domestic Violence Problems by
Labeling Paper and Electronic Case Files Which Have Good Cause Exceptions

      Ninety-eight percent of local public assistance and 67 percent of child support staff in
      focus States keep client records which indicate the specific circumstances surrounding a
      good cause exception. Records indicate and differentiate between whether the exception
      was granted because of domestic violence, conception due to forcible rape or incest,
      pending adoption, or other exceptions. Most of these offices report their objective in
      differentiating files and flagging cases is to preserve client safety.

      Under welfare reform, States are required to place a Family Violence Indicator (FVI) on
      all relevant child support case files and are not allowed to release files which include an
      FVI if the State has reason to believe the release of this information may result in physical
      or emotional harm to the client or child.12 At the time of our data collection, several
      months prior to the Federal deadline for implementing the FVI, 35 percent of local public
      assistance and 51 percent of local child support staff report employing an automated flag
      in the agency computer system. Among local child support offices which do not keep
      specific records of the type of good cause circumstances, respondents report staff are
      made aware of safety concerns through their automated referral from the public assistance
      agency.

      Staff report several advantages to indicating the reasons for a good cause claim on the
      client’s record. First, with this information, offices may be able to implement and apply
      precautionary measures to more effectively protect the client and possibly even pursue



                                               11

      child support. Second, records of any exceptions will already be established when clients
      later attempt to receive public benefits or pursue child support in another county or State.
      That area’s child support and public assistance staff are then notified of the potential for
      domestic violence when they review the case file. Transfer of files to other counties or
      States may also benefit from child support agencies actually opening and immediately
      closing a case, rather than not opening one at all. When the former occurs, the child
      support office in the client’s new location would receive notice of the good cause
      exception, regardless of whether the client continues to receive TANF benefits.

      A third benefit to differentiating records by the types of circumstances for a good cause
      exception is that offices may be able to use the information for future case analysis and for
      aggregate data collection. Numerous local child support (36 percent) and public
      assistance (48 percent) staff report they keep office statistics with this type of information.
      A quarter of the child support (24 percent) and public assistance (27 percent) staff report
      they refer to such information to determine how frequently the case has been, or should
      be, reviewed. Child support staff explain that the information is used to help determine
      whether child support should be pursued; however, most often such cases are routinely
      closed or staff cease all action on the case.

A Few Offices Assist Exempted TANF Clients in Creating a Safety Plan Outlining
Actions They May Take to Escape Domestic Violence

      Requesting a good cause exception to child support cooperation requirements may open
      an opportunity for local agency staff to discuss an overall plan to safely escape domestic
      violence. Advocates for victims of domestic violence suggest that developing such a
      safety plan for the custodial parent and child to escape future violence may enable the
      child support agency to eventually pursue support. Commonly called “safety plans,” these
      documents are typically personalized to the particular client and outline emergency
      procedures which clients may take if they decide to leave their abuser, and may also
      provide information to ease their transition to independence. These plans can serve as a
      checklist to ensure the victim does not neglect important details and is able to leave their
      abuser under the safest possible conditions. Safety plans often contain phone numbers and
      locations of community resources, family, friends and police, as well as data on financial
      accounts and school records, and even instruction in physical self-defense. In our focus
      States, just eight percent of local public assistance and three percent of local child support
      staff report they routinely provide at-risk clients with information about developing
      personal safety plans. This assistance typically consists of distributing brochures outlining
      safety plans or providing samples of completed plans.13

REASONS FOR CLIENTS NOT REQUESTING EXCEPTIONS

      Despite efforts to inform TANF clients about good cause exceptions, public assistance
      staff report they receive few requests for exceptions each year. Even some experienced
      workers indicate they have never had a client request an exception. Staff emphasize that



                                                12

       few, if any, clients fraudulently request an exception. Rather, both child support and
       public assistance staff suggest a number of reasons and disincentives which help explain
       limited client use of good cause exceptions.

Some TANF Clients May Not Request An Exception Because They Want the State
to Pursue Child Support Enforcement

       As reported above, most of our focus States have policies not to pursue child support
       enforcement in cases with good cause exceptions. As shown in Table 3, almost two-thirds
       of public assistance (66 percent) and child support (64 percent) staff report these policies
       are reasons that more potentially eligible clients do not request a good cause exception. A
       child support worker comments, “I think most of the custodial parents who have been
       abused still want to get the noncustodial parent to pay child support.” Child support
       income is potentially important to the self-sufficiency of TANF clients, and staff report
       that some clients who would qualify for good cause prefer to by-pass requesting an
       exception in hopes of eventually receiving child support. In addition to financial motives,
       some clients want to pursue support for reasons of fairness, “We get moms who feel the
       guy should not get off the hook for support by battering her. We refer them to legal
       services to help them prepare restraining orders and everything they might need to take
       action to protect themselves. If they want to pursue the case, it is up to them, but we feel
       they should have all necessary referrals to protect themselves.”

    Table 3: CHILD SUPPORT AND PUBLIC ASSISTANCE STAFF PERCEPTIONS OF
    REASONS WHY TANF CLIENTS DO NOT REQUEST GOOD CAUSE EXCEPTIONS

         Reasons Why Clients Do Not                   Public Assistance         Child Support
        Request Good Cause Exceptions                   Focus Offices           Focus Offices
Want to pursue child support                              66% (65 offices)      64% (61 offices)

Claiming lack of information may be safer                    59% (58)               54% (52)

Easier to claim lack of knowledge                            58% (57)               58% (56)

Embarrassed to admit domestic violence exists                56% (55)               46% (44)

Fear intervention by child welfare agency                    34% (34)               43% (41)

Fear retaliation from the noncustodial parent                28% (28)              25% (25)

Don’t understand the good cause provisions                   23% (23)               46% (44)

Don’t know about the good cause provision                     6% (6)                34% (33)


Some TANF Clients May Not Request An Exception Because They Fear Further
Abuse or Unwanted Intervention From Other Social Service Agencies

       Although all focus States have begun to implement safety procedures, clients may still be
       concerned that an abusive noncustodial parent may be able to locate them because their


                                                13

     address or other information is not secure. This apparently prevents some clients from
     disclosing any information about their situation. Table 3 shows that 28 percent of public
     assistance and 25 percent of child support staff report some clients fear retaliation from a
     noncustodial parent. Additionally, in local interviews, several child support workers in
     each State expressed concern about the confidentiality of court proceedings. Their
     concerns include the need for a procedure to notify the judge of domestic violence
     concerns and the confidentiality of social security numbers and addresses on all court
     documents. For example, one child support administrator explained, “There is much
     frustration with the court process. Court documents are public information, and
     therefore he can find out all of her information. We cannot protect clients if it goes to
     court. If we are going after him she wants us to guarantee that we can protect her.”
     Fear of harm and immediate prevention of harm to their family may take precedence over
     disclosing any information about the noncustodial parent, including circumstances which
     would qualify for a good cause exception. For example, public assistance staff explain,
     “We have a lot of women who won’t apply for assistance no matter how much we
     convince them it’s confidential. It scares them to even talk. They are concerned that he
     could find out where she is.”

     Some staff do not agree that pursuing support will automatically place a client at further
     risk. In interviews, staff indicated that courts may take action to protect the client, such as
     issuing restraining orders. A child support administrator reports, “It's not always the case
     that enforcing child support in domestic violence cases endangers the mom. The judge
     deals with domestic violence issues and it is out of our hands ... they handle that in family
     court.” Other tactics intended to minimize contact between the client and the
     noncustodial parent may allow offices to pursue support despite the threat of violence.14

     As also seen in Table 3, numerous child support (43 percent) and public assistance (34
     percent) staff believe that custodial parents may fear that disclosure of domestic abuse
     may lead to an intervention by the child welfare agency. By admitting to a State agency
     that the household is at risk of violence, the client may be inviting an investigation that
     could jeopardize her custody. A public assistance administrator says, “I think many
     clients just don’t bother to claim it and provide the documentation. Others don’t want to
     disclose that sort of thing. Child protective services (CPS) sometimes gets involved. If
     the mother claims that the child is in danger, she might fear the CPS will take the kids
     away.” Clients may also fear that police will be called to arrest the noncustodial parent for
     abuse, especially if child support enforcement in their State is part of a law enforcement
     agency.

Some TANF Clients May Not Request An Exception Because They Find it Safer
and Easier to Claim a Lack of Knowledge About Absent Parents

     Clients who fear retaliation or child welfare agency involvement, as well as clients who
     wish to avoid the process of requesting and corroborating circumstances that warrant a
     good cause exception, may find it safer and easier to simply cooperate with child support



                                               14

     enforcement than to request an exception. As shown in Table 3, 59 percent of child
     support and 54 percent of public assistance respondents believe that clients may view
     claiming a lack of knowledge about absent parents as safer than requesting a good cause
     exception. Similarly, 58 percent of respondents from each agency perceive that clients
     may view claiming a lack of knowledge as easier than requesting an exception. A public
     assistance administrator explains, “I think rather than claim good cause they just tell us
     they don’t know because it’s shorter and faster or because they think that nothing will
     happen. So many of our clients have gone on and off welfare that they think because
     they didn’t have to worry about it before, why should they have to worry about it now.”


     As we report elsewhere, claiming a lack of knowledge about absent parents does not
     release clients from otherwise cooperating with child support enforcement efforts
     including keeping appointments for interviews, court hearings and genetic testing.15
     However, formally attesting to a lack of knowledge does satisfy the cooperation
     requirements of three of our focus States and may satisfy requirements to cooperate in
     “good faith” in other States. Therefore, through this strategy clients may avoid being
     penalized for noncooperation, avoid providing information about a noncustodial parent,
     and avoid requesting and corroborating a good cause exception. The primary
     disadvantage of the strategy for clients is that they are far less likely to have child support
     collections as a source of income once they stop receiving TANF benefits.

Some TANF Clients May Not Request An Exception Because They Do Not Fully
Understand Benefits and Requirements, and Staff May Not Provide Guidance

     Table 3 also shows that while 34 percent of child support workers report they believe
     more clients do not request exceptions because they do not know about them, only six
     percent of local public assistance staff believe this is a reason. The difference here is likely
     to lie in the fact that it is primarily public assistance staff who are responsible for notifying
     clients of their right to request a good cause exception. Perhaps more importantly, 23
     percent of public assistance and 46 percent of child support staff responding suggest that
     clients do not seek an exception because, although they are aware of the good cause
     exception, they do not fully understand it. Clients often receive a large amount of
     information and answer many questions during their initial interview, of which only a small
     part involves discussion of good cause exceptions. It may be difficult for clients to
     understand the significance of the provisions unless workers make a special effort to
     emphasize them.

     While 68 percent of public assistance staff report they include information about domestic
     violence and client safety in their staff training programs, only 48 percent of child support
     respondents report similar information in their training. Several child support
     administrators told us that because it is the public assistance office which normally decides
     whether to grant good cause exceptions, they assume public assistance workers are trained
     to identify domestic violence, so there is little need to train their own



                                                15

     staff. If staff are not trained to provide education and outreach to identify good cause
     circumstances, clients may not understand that they can request an exception or how to do
     so. Without assistance from a worker, some clients may not identify themselves as
     potential candidates for good cause exceptions. As one child support administrator
     comments, “You may see some signs, but without training we don’t really know how to
     identify the signs.” A public assistance administrator adds, “We have had very limited
     training in domestic violence issues. We deal with it purely on what the client tells us on
     a client-by-client basis. We have no real standardized procedures.”

     Additionally, although the term “good cause” has a formal meaning in child support
     cooperation regulations, we found staff sometimes also use the term, for example, to refer
     to the client’s difficulty in arranging transportation to an appointment as a “good cause”
     for not cooperating. While most workers appear to know that they use the same term to
     refer to a variety of situations, multiple use of the term “good cause” can create confusion
     and misunderstanding among staff and clients.

Some TANF Clients May Not Request An Exception Because They Find It Difficult
to Disclose Circumstances of Domestic Violence

     Also shown in Table 3, about half of public assistance (56 percent) and child support (46
     percent) staff report they perceive that clients are embarrassed to admit they are victims of
     domestic violence. Clients may not want to disclose their circumstances to a stranger,
     especially if the worker is not able to take time to carefully explain the good cause
     exception and make an effort to gain the client’s trust. Clients may also be intimidated by
     the volume of information collected during an interview, particularly in the public
     assistance office. Public assistance interviews can last from 30 minutes to two hours,
     covering a wide range of topics. Some public assistance offices assign a single caseworker
     to handle nearly all aspects of a client’s case, in part to allow the client to develop a
     relationship with that worker. However, clients in other offices may communicate with
     different workers who specialize in various aspects of their case. The physical setting of
     the office, particulary if interviews take place in a large room with no partitions for
     privacy, may also affect the client’s willingness to divulge information.

     Creating an atmosphere that eases disclosure may be more difficult with victims of
     domestic violence than with other clients. One male public assistance worker says,          “
     ... when I talk to someone who has been in an abusive relationship, I find I have to be
     especially soft when I talk to them, tone everything down, and make them see I
     understand, and not to frighten them ....” Clients may be even more hesitant to confide in
     child support staff since they are likely to ask more questions specific to the father, and
     may be housed in a law enforcement agency that some clients may perceive as threatening.
     One worker explains that they consider client comfort, “We let her know that we are
     going to help her as best we can, [and] that we understand the situation. So we get them
     to open up as much as possible, but still there is a shame factor, and we know she usually
     does not tell us everything.”



                                              16

                    RECOMMENDATIONS

      Successful operation of the child support enforcement program requires effective,
      cooperative action by both the Office of Child Support Enforcement and the Office of
      Family Assistance. Therefore, we recommend that the Assistant Secretary for the
      Administration for Children and Families (ACF) encourage States to:

Develop Strategies That Allow TANF Clients Who May Be at Risk of Domestic
Violence to Safely Pursue Child Support

      Child support agencies typically do not pursue child support for TANF clients who are
      granted a good cause exception, yet victims of domestic violence would likely benefit
      from the additional income child support could provide. ACF should assist States in
      developing practices which would allow clients who are at risk of domestic violence to
      decide whether the State’s child support agency will pursue support and help protect
      clients who decide to do so. This might include taking precautions during court
      appearances, making further referrals to community resources, and assisting clients to
      develop safety plans.

Enhance Local Office Training to Improve Staff Understanding of Good Cause
Exceptions and Better Equip Workers to Assist TANF Clients At Risk

      For effective use of good cause exceptions, staff should understand the benefits and
      requirements associated with exceptions, be able to identify individuals who may be
      eligible for an exception, and be prepared to assist clients in requesting and corroborating
      an exception. ACF should assist States in developing training tools that both clarify State
      policy and address ways to individually assess and work with clients who are at risk of
      domestic violence to improve their safety and cooperation.

Evaluate Their Standards and Practices for Protecting TANF Client Confidentiality
and Assess the Need for Further Federal Guidelines

      Clients who perceive themselves at risk of domestic violence may fear disclosure of
      personal information, discouraging them from either cooperating with child support or
      requesting a good cause exception. ACF should assess agency practices in contacting
      noncustodial parents, including the use of identifying information on correspondence and
      court documents, and encourage all agencies involved to promote a safe environment for
      clients. Also, ACF should explore with States the feasibility of labeling all cases with
      good cause exceptions or risk of domestic violence, both to enhance confidentiality and to
      improve caseload analysis. In communicating with States on these issues, ACF should
      assess whether further Federal guidance is needed.

      ACF did not provide comments in response to our draft report and recommendations.


                                               17

                                  ENDNOTES

1.     The Personal Responsibility and Work Opportunity Act of 1996

2.     45 CFR 323.42.

3.     45 CFR 323.40.

4.     Ibid.

5.	    The Federal Office of Child Support Enforcement (OCSE) has helped facilitate a number
       of national meetings to further explore the ramifications of these changes, and created
       materials to provide assistance to States in implementing the policy regarding good cause
       exceptions. OCSE has also funded several demonstration projects to test different models
       for using good cause exceptions and assisting clients at risk of domestic violence.

6.     42 U.S.C. Section 654(29).

7.	    We do not attempt to assess any change in agency responsibility for administering good
       cause exceptions among our focus States as a result of welfare reform.

8.	    In a related matter, welfare reform legislation also instituted the Family Violence Option
       (FVO), a provision designed to take into account the effect of domestic violence on a
       client’s ability to meet program requirements. States which adopt the FVO may exempt
       TANF clients from child support cooperation requirements, as well as work and other
       program requirements, and avoid Federal penalties for failure to meet work participation
       rates if the State demonstrates that their failure was due to exempting clients for
       “Federally recognized good cause domestic violence waivers.” In order to grant these
       waivers, States must assess clients for a history of domestic violence, refer such
       individuals to counseling or supportive services, and assure that waivers from program
       requirements are accompanied by an “appropriate service plan.” Federal Register: April
       12, 1999 (Volume 64, Number 69), page 17881. At the time of data collection, three of
       our focus States had passed the FVO. We determined that it was too early in the
       implementation of this provision to assess the impact of adopting the FVO.

9.	    For example, the Office of Child Support Enforcement reports that only 4,196 clients (of a
       total AFDC-TANF caseload of 6,461,723 clients) requested a good cause exception to
       child support cooperation requirements in 1997, and only 2,296 exceptions were granted
       by States. The Federal Office of Child Support Enforcement, 22nd Annual Report,
       Appendix C, Tables 46 and 26, respectively.

10.	   See, for example, “Domestic Violence: Prevalence and Implications for Employment
       Among Welfare Recipients,” Government Accounting Office, November 1998,
       GAO/HEHS-99-12.



                                                18

11.	   The frequency of assessments may increase as States implement the FVO, which requires
       States to screen public assistance applicants for a history of domestic violence.

12.    42 U.S.C. 654(26)(B)(C).

13.	   States which adopt the Family Violence Option are required to develop appropriate
       service plans for victims of domestic violence, which would typically include safety
       considerations.

14.	   A recent report produced collaboratively by OCSE and The Center for Law and Social
       Policy, “Models for Safe Child Support Enforcement,” describes a number of strategies
       employed by States in order to enhance client safety while pursuing support.

15.	   For more information on cooperation requirements, please refer to our companion report
       entitled, Client Cooperation with Child Support Enforcement: Policies and Practices, OEI
       06-98-00040, 2000.




                                               19

